<html>
<title> - THE GREAT AMERICAN ECLIPSE:. TO TOTALITY AND BEYOND</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                      THE GREAT AMERICAN ECLIPSE: 
                         TO TOTALITY AND BEYOND

=======================================================================

                             JOINT HEARING

                               BEFORE THE

               SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY &
                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 28, 2017

                               __________

                           Serial No. 115-28

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-175 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>        
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
BARRY LOUDERMILK, Georgia            ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         PAUL TONKO, New York
DRAIN LaHOOD, Illinois               BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ANDY BIGGS, Arizona
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           September 28, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     4
    Written Statement............................................     5

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     7
    Written Statement............................................     8

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    13
    Written Statement............................................    14

                               Witnesses:

Dr. James Ulvestad, Assistant Director (Acting), Directorate for 
  Mathematical & Physical Sciences, National Science Foundation
    Oral Statement...............................................    17
    Written Statement............................................    19

Dr. Thomas Zurbuchen, Associate Administrator, Science Mission 
  Directorate, NASA
    Oral Statement...............................................    25
    Written Statement............................................    27

Dr. Heidi Hammel, Executive Vice President, Association of 
  Universities for Research in Astronomy
    Oral Statement...............................................    32
    Written Statement............................................    34

Dr. Matthew Penn, Astronomer, National Solar Observatory
    Oral Statement...............................................    41
    Written Statement............................................    43

Ms. Michelle Nichols-Yehling, Director of Public Observing, Adler 
  Planetarium
    Oral Statement...............................................    55
    Written Statement............................................    57

Discussion.......................................................    60

             Appendix I: Answers to Post-Hearing Questions

Dr. James Ulvestad, Assistant Director (Acting), Directorate for 
  Mathematical & Physical Sciences, National Science Foundation..    74

Dr. Thomas Zurbuchen, Associate Administrator, Science Mission 
  Directorate, NASA..............................................    76

Dr. Heidi Hammel, Executive Vice President, Association of 
  Universities for Research in Astronomy.........................    78

Dr. Matthew Penn, Astronomer, National Solar Observatory.........    80

Ms. Michelle Nichols-Yehling, Director of Public Observing, Adler 
  Planetarium....................................................    82

            Appendix II: Additional Material for the Record

Statement submitted by Representative Daniel Lipinski, Ranking 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    86

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    87

Report submitted by Representative Bill Foster, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    88

Statement submitted by Representative Elizabeth Esty, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    99

 
                      THE GREAT AMERICAN ECLIPSE:.
                         TO TOTALITY AND BEYOND

                              ----------                              


                      Thursday, September 28, 2017

                  House of Representatives,
        Subcommittee on Research and Technology and
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to other business, at 9:22 
a.m., in Room 2318 of the Rayburn House Office Building, Hon. 
Barbara Comstock [Chairwoman of the Subcommittee on Research 
and Technology] presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Good morning, and welcome to today's hearing titled ``The 
Great American Eclipse: To Totality and Beyond.'' I recognize 
myself for an opening statement, but I am going to submit most 
of my prepared statement for the record. We need to finish the 
hearing before votes are called around 10:30 a.m., so our 
apologies for truncating things here.
    We know we will be inspired by our witnesses today, and 
harnessing the enthusiasm for the eclipse that we saw when 
people really came together. I know my husband was with his 
cereal box doing that, and he's a math teacher, so he was very 
excited. So we're excited to see, you know, this whole 
generation of students who are interested in this and would 
like to now translate that into STEM careers. We're excited to 
hear from our witnesses today. I'm going to shorten up and 
submit my statement for the record.
    [The prepared statement of Chairwoman Comstock follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. And Then I am going to now recognize 
the Ranking Member, the gentleman from California, Mr. Bera, 
for his opening statement.
    Mr. Bera. Thank you, Madam Chairwoman.
    You know, the eclipse was absolutely exciting, right? On 
August 21st, you know, I went to the Powerhouse Science Center 
in Sacramento, and what was great about it was the number of 
kids that were out there with their glasses, and the number of 
amateur astronomers that were out there. You know, that reminds 
me of the excitement, you know, growing up with the Apollo 
program and the excitement, and the generation of scientists 
that that spawned and, you know, encourage folks to go into 
science.
    You know, we were out at Goddard, you know, with my staff 
visiting with one of the helio scientists out there, and they 
were talking about the Parker Solar Probe, and you know, she's 
probably--I can't remember the scientist's name but she was one 
of the most enthusiastic people that I've seen, so if we can 
have more of this enthusiasm, this excitement, it's going to 
generate a generation of kids wanting to go into science.
    So I'm going to keep my comments short there, and I will 
yield back, and I'm excited to hear what you guys have to say.
    [The prepared statement of Mr. Bera follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Great. And I now recognize the 
Chairman of the full Committee for a statement, Mr. Smith.
    Chairman Smith. Thank you, Madam Chairwoman.
    In August, millions of Americans turned their eyes to the 
sky to witness a rare event: a solar eclipse. The Great 
American Eclipse was a profound experience for anyone fortunate 
enough to be in the path of totality, and exciting even for 
those of us who witnessed a partial eclipse.
    An eclipse is a sight that has inspired previous 
generations, and one that I hope will inspire a whole new group 
of young people to study the universe and beyond. It was an 
1878 American eclipse that inspired a young inventor named 
Thomas Edison. Edison took a trip to Wyoming to view the total 
eclipse and attempt an experiment to measure the sun's corona, 
or outer atmosphere. The experiment failed, but allegedly 
inspired him to think about the principles of light and 
transmission of power. The very next year he invented the 
incandescent electric light bulb.
    Who knows what discoveries this year's eclipse will 
inspire, but we do know it has already rejuvenated an 
enthusiasm for astronomy, astrophysics and astrobiology. Thanks 
to the good work of NASA, NSF and their partners, that 
enthusiasm was converted into viewing parties, STEM education 
lessons, and citizen science that engaged millions of 
Americans.
    We have the privilege today of hearing from a panel of 
witnesses who helped make the day a success for both science 
and education. I thank our witnesses, and look forward to 
seeing their incredible photos and videos, learning what 
scientific discoveries may come from experiments conducted 
during the eclipse, and hearing what's next for solar science.
    It is human nature to seek out the unknown and to discover 
more about the universe around us. We have an extraordinary 
opportunity to turn enthusiasm for the Great American Eclipse 
into a renewal for American physics and astronomy that lasts 
far beyond the two minutes of totality.
    Thank you, Madam Chairwoman. I yield back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. Thank you, and I now recognize the 
Chairman of the Space Subcommittee, Dr. Babin, for an opening 
statement.
    Mr. Babin. Thank you very much, Madam Chairwoman.
    I want to start by thanking our colleagues and also our 
witnesses that have come forth on this very, very interesting 
hearing.
    Something that struck me about this eclipse is the level of 
excitement that it generated all across the United States. The 
eclipse was something that that really brought us all together 
in our inspiration and awe.
    I'd like to also add that NASA's web traffic during the 
eclipse skyrocketed. It peaked at seven times higher than its 
previous record. The eclipse's online viewing audience compared 
with the audience for the Super Bowl, and even Netflix lost ten 
percent of the day's viewership to the eclipse. And schools 
across the country incorporated the eclipse into teaching 
programs, and there's no telling how the eclipse sparked the 
imagination of our school kids and captured their fascination 
and I thoroughly enjoyed myself showing and explaining to our 
schoolchildren in some parts of my district during that time 
including my own grandchildren, the little cereal boxes that 
our Chairwoman had just talked about that we had made, their 
solar viewer projectors I think is what their real name is. But 
it was one of those rare wonderful events that was as exciting 
to the scientific community as it was the man the street. It 
was an inspiration to our youth and it brings to mind an 
interesting comparison. In a way, the 2017 solar eclipse was 
almost like a space mission that was brought into our own 
backyards.
    I am excited about the upcoming 2024 eclipse, which, in my 
opinion, could even be more impressive and awe-inspiring, not 
the least because the path of totality for the eclipse travels 
right across my home State of Texas.
    I want to thank you all for your testimony looking forward 
to it, and I yield back, Madam Chair.
    [The prepared statement of Mr. Babin follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. Thank you.
    And I will now introduce our witnesses.
    Our first witness today is Dr. James Ulvestad, Acting 
Assistant Director of the Directorate for Mathematical and 
Physical Sciences at the National Science Foundation. Prior to 
the NSF, he was Assistant Director of the National Radio 
Astronomy Observatory, where he oversaw the Very Long Array and 
Very Long Baseline Array radio telescopes. He has also served 
in various capacities at the NASA Jet Propulsion Laboratory. He 
received his bachelor of arts degree in astronomy from the 
University of California at Los Angeles and his Ph.D. in 
astronomy from the University of Maryland.
    Our second witness today is Dr. Thomas--I'm going to let 
you----
    Dr. Zurbuchen. Zurbuchen.
    Chairwoman Comstock. Zurbuchen, Associate Administrator of 
the Science Mission Directorate at NASA. He previously served 
as a Professor of Space Science and Aerospace Engineering at 
the University of Michigan. He has worked on several NASA 
science missions including Ulysses, the MESSENGER spacecraft to 
Mercury, and the Advanced Composition Explorer. He earned both 
his master's of science degree and his Ph.D. in physics from 
the University of Bern in Switzerland.
    Our third witness today is Dr. Heidi Hammel, Executive Vice 
President of the Association of Universities for Research in 
Astronomy, a group of 44 U.S. universities and institutions 
that operates world-class astronomical observatories including 
the Space Telescope Science Institute, the National Optical 
Astronomy Observatory, the National Solar Observatory, and the 
Gemini Observatory. Since 2003, she has served as one of six 
interdisciplinary scientists advising NASA on the science 
development of the James Webb Space Telescope. Dr. Hammel 
received her undergraduate degree from MIT and her Ph.D. in 
physics and astronomy from the University of Hawaii.
    Our fourth witness today is Dr. Matthew Penn, Astronomer at 
the National Solar Observatory. He is a Principal Investigator 
on the Citizens Continental Telescope Eclipse Experiment, or 
Citizen CATE, and a Telescope Scientist for the McMath-Pierce 
Solar Facility at Kitt Peak. Specifically, he works on the 
DKIST Telescope Project under construction in Hawaii developing 
infrared science and instrumental requirements. He received his 
bachelor's of science degree in astronomy from Cal Tech as well 
as a Ph.D. in astronomy from the University of Hawaii.
    And our fifth witness today is Ms. Michelle Nichols-
Yehling, Director of Public Observing at the Adler Planetarium 
in Chicago. While at Adler, she has developed exhibits, shows, 
and programs and events for Adler guests. She also leads the 
Adler's various telescope observatory and sky-observing 
efforts. She earned her bachelor's of science degree in physics 
and astronomy from the University of Illinois at Urbana-
Champaign and a master's of education degree in curriculum and 
instruction from National St. Louis University.
    And I now recognize Dr. Ulvestad for his statement and 
testimony.

                TESTIMONY OF DR. JAMES ULVESTAD,

                  ASSISTANT DIRECTOR (ACTING),

                 DIRECTORATE FOR MATHEMATICAL &

                       PHYSICAL SCIENCES,

                  NATIONAL SCIENCE FOUNDATION

    Dr. Ulvestad. Thank you, Chairwoman Comstock, Ranking 
Member Bera, Chairman Smith, Chairman Babin, Members of the 
Subcommittees. I'm James Ulvestad, Acting Assistant Director 
for the Mathematical and Physical Sciences Directorate at the 
National Science Foundation. Thanks for the opportunity to 
testify here today.
    I want to focus my oral remarks on NSF's solar research 
efforts and the large-scale outreach associated with the 
eclipse. As you've all said, August 21st was an exciting day 
for our citizens and scientists alike as our nation was center 
stage for the 2017 total solar eclipse, the first in the 
continental United States since 1979.
    Scientists and spectators from around the world, including 
Members of Congress from these Subcommittees--you can see 
yourselves up there possibly--gathered across the country to 
witness this extraordinary event. The eclipse was a total solar 
eclipse where direct sunlight was blocked for over two minutes 
while the moon covered the sun. It made its way from Oregon to 
South Carolina, illuminating a 70-mile-wide path across 14 
states. The rest of the continental United States experienced 
some percentage of the partial solar eclipse during the 
eclipse's 90-minute traverse across the country.
    The sun is the basis for life on Earth. Its magnetic fields 
and atmosphere, specifically its corona, fuel space weather 
that affects Earth's power grids and communications systems. 
The sun's power is also a source of renewable energy for our 
advanced civilization, and the fundamental importance of the 
sun leads the National Science Foundation to sponsor a broad 
array of research related to our local star.
    NSF-supported scientists track the development of sun 
spots, flares, and coronal mass ejections. They work to better 
understand how these phenomena are associated with the sun's 
magnetic field, which influences the energetic space weather 
events that can wreak havoc on our technology.
    During the eclipse, the high-altitude observatory of NSF's 
National Center for Atmospheric Research in partnership with 
the Harvard-Smithsonian Center for Astrophysics flew an 
airborne infrared spectrometer onboard NCAR's Gulfstream V 
research aircraft. This instrument collected infrared data to 
probe the complex magnetic environment of the sun's corona. Of 
course, there aren't results yet. As science goes, there will 
be results coming out over the next year or two.
    Researchers in general continue to study the behavior of 
the sun to develop warnings of solar storms that may be coming 
toward Earth. So the Global Oscillations Network Group of NSF's 
National Solar Observatory, a network of six solar-monitoring 
telescopes sited worldwide, provides full-time monitoring of 
the sun and is a critical element of space weather forecasting 
models.
    So now let me move to the eclipse and some of the outreach 
efforts. First I want to say here that any funding that the 
Federal Government put into this was leveraged by a factor of a 
thousand by the planetaria, the high school teachers, the 
college students, the random citizens and amateur astronomers 
who went out there and engaged with the public. So I really 
want to thank them for that.
    So one of the activities that Chairwoman Comstock already 
mentioned was the citizen science project, Citizen CATE, the 
Continental America Telescope Eclipse, an experiment that 
included a network of 68 identical telescopes placed along the 
2,500-mile path of totality operated by citizen scientists, 
high school groups, and universities. NSF Director Dr. France 
Cordova, who's shown on this slide, was pleased to be in 
Glendo, Wyoming, which I think had a 100- or 1,000-fold 
increase in population for one day, to experience the solar 
eclipse and participate firsthand in Citizen CATE outreach. 
You'll hear more about this from Dr. Matt Penn.
    NSF also funded the American Astronomical Society program 
called Solar Eclipse Across America. This included a mini 
grants program that funded 31 projects in 21 states.
    Now, as far as the future goes, by early 2020, NSF's Daniel 
K. Inouye Solar Telescope, the new centerpiece of the National 
Solar Observatory, will be complete on the summit of Haleakala 
on Maui, Hawaii. It will provide researchers an unprecedented 
close-up view of the solar corona without having to wait for a 
solar eclipse. The enhanced understanding of the sun and the 
origin of solar storms will undoubtedly contribute to better 
predictions of space weather in the future.
    The solar eclipse was a great opportunity for scientific 
research and citizen engagement in an event that brought a 
sense of wonder and curiosity to scientists and citizens alike. 
The basic research conducted with DKIST, which you see here, 
will revolutionize our understanding of the sun in the future. 
We're looking forward to the next eclipse in 2024. There will 
also be an annular eclipse in 2023 so you have a six-month-
ahead rehearsal, and we're pleased to enjoy the support of the 
public in fulfilling our role.
    We thank the Subcommittee members for their ongoing support 
of NSF and our efforts to serve the people of the United 
States.
    [The prepared statement of Dr. Ulvestad follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. I now recognize Dr. Zurbuchen.

               TESTIMONY OF DR. THOMAS ZURBUCHEN,

                    ASSOCIATE ADMINISTRATOR,

               SCIENCE MISSION DIRECTORATE, NASA

    Dr. Zurbuchen. Madam Chair, Members of the Subcommittee, as 
the head of NASA's Science Mission Directorate, I represent the 
thousands of volunteers, partners and NASA employees who made 
the 2017 eclipse the biggest media event in modern history of 
NASA. I would like to describe NASA's experience with the 
eclipse, highlight some of the results of our science and STEM 
efforts, and discuss how important heliophysics is for NASA's 
mission.
    Monday, August 21st, a total solar eclipse across the 
continental United States occurred for the first time in almost 
a century, and I'll share with you my own vantage point, which 
was at 45,000 feet over the Pacific Ocean in an aircraft 
outfitted with science experiments to capture views, before, 
during and after the event. It was truly breathtaking. Watch.
    [Video playback]
    So I was excited. You may be able to tell. I was so excited 
that I mixed up the colors. It's called the diamond ring, not 
the solar ring, if you want to quote that.
    Well, anyway, our NASA team and scientists around the 
country have been planning for this eclipse for many years, and 
with me at the hearing is Dr. Alex Young right behind me, our 
Project Manager, who has been a champion for the eclipse and 
working with a broad NASA team for over three years. The team 
focused key priorities: safety, science and citizen science 
education, and public engagement. To accomplish these 
priorities, we knew we couldn't do it alone. The entire agency 
rallied, and each of our 10 centers led major functions and 
events partnering really broadly. The eclipse was the biggest 
science outreach event in modern NASA history. Working with our 
partners, we engaged with citizens across 14 states, nearly 
7,000 libraries, 200 museums, planetaria and science centers, 
40 Challenger centers, and 20 national parks, zoos, and even 
baseball stadiums. More than 50 million unique viewers watched 
the TV broadcast across multiple NASA and social media 
platforms, and we had 90 million page views of the NASA website 
on eclipse day alone. These numbers exceed previous records by 
many times over.
    I talked to many people after the eclipse, and it was 
really clear that not only professionals were deeply moved by 
it but amateurs alike. This is truly moving. That's what NASA 
science does for us every day.
    Showing now our views of the solar eclipse from various 
NASA assets. Eleven of them were focused on this unique event 
as well as three aircrafts. In fact, when looking at the 
eclipse, I could not help myself, just like the Congressman, 
thinking of the Parker Solar Probe launching next year, which 
will travel closer to the sun than any time we've been there 
before, really making these unique observations of the extended 
corona and revolutionizing our understanding of the sun, which 
is really the Rosetta Stone of understanding of all stars in 
the universe.
    Additionally, NASA solicited experiments to take advantage 
of the unique opportunities provided by the eclipse to do 
science. Eleven grantees were selected, three of which are 
studying the ionosphere, measuring how the sun's energy affects 
this reach in this region of the outer atmosphere. ICON and 
GOLD will continue to improve after the launching later on our 
understanding and capability for what is happening to that 
region and the edge of space.
    We also want to stress citizen science, and I'm going to 
let Matt talk about this. It's really valuable to have science 
done, valuable science done by citizens, not just 
professionals, and there's true value with this, not just here 
but elsewhere.
    With safety a top priority, we published protocols on our 
websites and partnered with the American Astronomical Society, 
NSF, and others to spread the world about eye safety. This 
provided critical--proved critical when it was discovered that 
uncertified solar glasses were making it into the markets. We 
owe a debt of gratitude to our partners that helped us identify 
and communicate which glasses were safe, and in the end, NASA, 
Google and the Moore Foundation distributed over 4.3 million 
glasses.
    In closing, let me talk about heliophysics, or solar and 
space physics, as others referred to it, that really protects 
and improve life on Earth. This total solar eclipse provided a 
unique opportunity of seeing the source of space weather with 
our naked eye, the atmosphere of our magnetic star. This corona 
impacts the Earth through the solar wind explosions on the sun, 
flares and energetic particles affecting our space assets and 
our technological infrastructure, and so we want to really make 
these improvements better for operational use for NOAA and the 
DOD.
    So I too suggest that we start making plans for the next 
solar eclipse in the United States on April 8, 2024. It's going 
to be another great opportunity for all of us to learn about 
the solar system we live in, and I really suggest you get 
started with these hotel reservations. They got really 
expensive for those who were latecomers.
    Thank you so much.
    [The prepared statement of Dr. Zurbuchen follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you, and I now recognize Dr. 
Hammel.

                 TESTIMONY OF DR. HEIDI HAMMEL,

                   EXECUTIVE VICE PRESIDENT,

                  ASSOCIATION OF UNIVERSITIES

                   FOR RESEARCH IN ASTRONOMY

    Dr. Hammel. Madam Chair and Members, thank you for the 
opportunity to testify about the total solar eclipse.
    On August 21, 2017, millions of Americans including me 
witnessed the total solar eclipse, watching in wonder as our 
star disappeared from the sky. At the same time, scientists 
scrambled to collect as much data as possible about the sun's 
faint corona.
    The sun's corona is the source of solar storms. The term 
``space weather'' refers to the effects of these storms on the 
Earth and other planets in our solar system. We live inside the 
atmosphere of an active star.
    In 1859, a monster solar storm, the Carrington Event, 
stunned the world. Telegraphic systems worldwide went haywire, 
emitting sparks that not only shocked the telegraph operators 
but actually set telegraph paper on fire. It's sobering to 
imagine the catastrophic social and economic disruption of a 
Carrington-like storm on today's infrastructure including GPS 
satellites, electricity grids, and communications satellites, 
and that is why understanding the sun and space weather are 
critical national imperatives.
    Eclipses offer one of the best opportunities to study the 
sun's active corona but eclipses are rare. To study the corona 
without an eclipse, the National Solar Observatory, or NSO, is 
building the Daniel K. Inouye Solar Telescope, DKIST, for the 
NSF. When completed in 2020, DKIST will be the world's most 
powerful solar telescope. Its 4-meter mirror will yield 
exquisite spectropolarimetric observations of the sun's corona 
and magnetic field.
    But let me return to the 2017 total solar eclipse because 
it too was a unique opportunity to advance solar science and 
public engagement. NSO began preparing more than five years 
ago, focusing their efforts on science and safety. Claire 
Raftery, who is here with us today, and her team developed a 
social media campaign with a variety of content including 
monthly webcasts that focused both on science and on 
educational engagement, and on eclipse day, NSO participated in 
two major solar outreach events. The first, that you heard 
about, was in Glendo, Wyoming. It culminated years of effort to 
prepare this tiny community of 200 people for this event, and 
the local sheriff's office estimated that 180,000 people 
descended on tiny Glendo, Wyoming, including, as you saw, the 
Director of NSF, Dr. France Cordova. The second event, in 
Salem, Oregon, focused on high school students. NSO, in 
partnership with other groups, trained a dozen students, all of 
whom are minorities that are under-represented in the STEM 
fields, to be ambassadors for science, and on eclipse day, the 
students led the programs for the community.
    Looking to the future, as you heard, another total solar 
eclipse will sweep the country from Texas to Maine, and we are 
already preparing. We plan to engage with students in under-
represented demographic groups well in advance of the 2024 
eclipse to prepare a new set of students to be community 
leaders and science ambassadors.
    And finally, my colleague here, Matt Penn, developed an 
ambitious eclipse program to combine public engagement with 
science, and I'd like to share a video about several young 
people in Dr. Penn's Citizen CATE program.
    [Video playback]
    This eclipse changed their lives, and their citizen CATE 
observations may improve our lives. These young people helped 
us gather the largest volume of science quality eclipse data 
ever recorded, and I will now turn the microphone over to Dr. 
Penn to describe his program.
    On behalf of AURA and NSO, I appreciate your attention, and 
I'd be happy to answer any questions. Thank you.
    [The prepared statement of Dr. Hammel follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you.
    I now recognize Dr. Penn.

                 TESTIMONY OF DR. MATTHEW PENN,

             ASTRONOMER, NATIONAL SOLAR OBSERVATORY

    Dr. Penn. Madam Chair and Members of the Subcommittees, 
thank you for the invitation to speak to you about the Citizen 
CATE experiment.
    While Reva Dusette was crying tears of joy in Wyoming, Jack 
Erickson and his students from Cienega High School in Vail, 
Arizona, were close to tears but for a completely different 
reason. If I could have my first slide?
    [Slide]
    It was raining at their city in Pawnee City, Nebraska. Jack 
and his students were really eager to collect data. They had 
practiced for months, and along the way they had spoken with 
many newspaper and radio and TV reporters about the program. 
This media coverage followed many of our CATE teams across the 
Nation. Local TV affiliates would find their CATE students from 
our 27 university and 22 high school partners and do stories on 
them, and these students would get recognized not for scoring a 
touchdown in a football game but for doing a STEM project and 
observing the sun.
    My colleagues at NASA do an excellent job of observing the 
solar corona, but even their advanced instrumentation has a gap 
in our understanding. If I could have the next slide?
    [Slide]
    A total solar eclipse opens up a window that allows us to 
study the inner corona, and the Citizen CATE experiment was 
designed to take advantage of that opportunity. You can see in 
the flashing rectangle the Citizen CATE data fills the gap that 
we currently have in our understanding of the corona.
    Specifically, we're designed--we're trying to measure the 
solar wind above the north and the south poles of the sun as it 
moves through thin magnetic structures that we call polar 
plumes. Now, just like sitting across the table from your 
daughter and watching her drink a milkshake through a 
transparent straw, you can measure the velocity of the 
milkshake by tracking features. We can use the CATE data to 
track features in the fast solar wind and measure the velocity 
of the solar wind that way.
    But unlike a milkshake, the fast solar wind has important 
implications for space weather, and therefore it's really 
critical that we understand it. So on the day of the eclipse, 
the CATE teams had enormous success. Sixty-two of our 68 sites 
collected images of the corona, and today I'm happy to be 
joined by Miles McKay from the Space Telescope Science 
Institute. On the day of the eclipse, Miles returned to his 
alma mater at South Carolina State University and took data on 
the 50-yard line with a CATE instrument in a stadium filled 
with 5,000 cheering fans.
    [Slide]
    We can see in the third slide that the skies cleared for 
Jack Erickson and his team. They were able to capture imagines 
with their telescope. On the left you can see the corona that's 
been filtered slightly to show you as--to show it as you might 
see with your eye, and then on the right we see a more highly 
enhanced version of that image that brings out details that you 
can't see with your eye. Each of the CATE images shows the 
solar atmosphere across a region that's more than a million 
miles across on each side, and so from any one location where 
you just have two minutes to view the corona, you don't see a 
lot of changes during that short period of time, but the CATE 
data set when it's combined allows us to see changes across 93 
minutes of time.
    [Slide]
    So on the next slide, I've put together a very rough-cut 
movie of the CATE data set. We collected over 45,000 imagines 
of the corona on that day but in the 4 weeks, I've only been 
able to process about 300 of them to show you here today. If 
you imagine that the moon is a clock face, at about the seven 
o'clock position, you can see a system of outflows moving away 
from the sun. These are traveling at about 20,000 miles per 
hour. It's pretty slow for the solar wind. And then if you look 
closely at five o'clock, you can see a quicker outflow. This 
is, we think, a signature of the fast solar wind in the south 
pole of the sun, and that's traveling at something like 200,000 
miles per hour, or perhaps faster. So even with just one 
percent of the CATE data analyzed so far, we're getting a new 
view of the solar corona that we haven't seen before. A lot of 
science will follow.
    I'd like to close by saying that a total solar eclipse is 
both an uplifting and a humbling experience at the same time. 
It's uplifting because it teaches us that we're smart enough to 
predict when these will occur.
    [Slide]
    In my next slide, we can see, as my colleagues have 
mentioned, that the next eclipse visible across the country, 
across the United States, will occur on April 8, 2024, but if 
we go further and try to figure out when is the next solar 
eclipse, total solar eclipse, visible from Dallas, Texas, we 
can predict that it will occur at 1:57 p.m. on Saturday, June 
30th in the year 2345. So mark your calendars, please.
    A total solar eclipse is also a humbling experience because 
it teaches us that we have no control over the huge planetary 
bodies that cause eclipses. It reminds us that we're just 
little people sitting on a big rock watching the show, and it 
doesn't matter what your nationality is or what your age or 
your gender, a total solar eclipse is a really moving and human 
experience.
    So I'm looking forward to enjoying the next experience--
experiencing the next eclipse with all of you in April of 2024, 
and I'm looking forward to answering any questions that you 
might have as well.
    [The prepared statement of Dr. Penn follows:]
    Chairwoman Comstock. And now we'll hear from Ms. Nichols-
Yehling.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

           TESTIMONY OF MS. MICHELLE NICHOLS-YEHLING,

                 DIRECTOR OF PUBLIC OBSERVING,

                       ADLER PLANETARIUM

    Ms. Nichols-Yehling. Madam Chairwoman and Members of the 
Subcommittees, thank you for this opportunity to testify.
    On August 21st, 2017, millions of people across the United 
States gathered. Friends, families and strangers gathered by 
the hundreds, thousands, or tens of thousands in public spaces. 
They gathered in small groups or they found places to be alone. 
No matter the size of the group, the goal was the same: look up 
at the sky at an astronomical spectacle that hadn't been seen 
to this degree in our country for several decades: a solar 
eclipse.
    Coordination and planning of efforts for public engagement 
around the eclipse started several years ago. Organizations 
such as the American Astronomical Society and the Astronomical 
Society of the Pacific helped institutions and groups talk to 
each other to see where efforts could be shared. The American 
Astronomical Society and NASA served as clearinghouses of 
reliable scientific content to help the media, the public, and 
educators engage with the eclipse phenomenon. Universities such 
as Southern Illinois University at Carbondale and the 
University of Missouri in Columbia planned extensive public 
opportunities at many audience engagement levels. Institutions 
such as the Adler Planetarium in Chicago organized events for 
those who could not travel to the path of totality but who 
still wanted to enjoy the sight of the partial eclipse. These 
were massive efforts that reached millions of people across the 
country.
    The Adler Planetarium started planning for this eclipse 
three years ago. We had several goals for our programs: 
increase the capacity of organizations around the Chicago area 
to host their own eclipse-observing events, make residents of 
Chicago, the surrounding suburbs, and those in the region aware 
of what was happening and empower them with the skills and 
tools to observe the eclipse themselves, serve as a trusted 
source of information for the public and the media, provide 
eclipse resources for those who might not otherwise have access 
to them, reach traditionally underserved audiences, engage a 
variety of communities and get them interested in our universe, 
even if they had not been interested previously, and bring 
Chicago together because this was Chicago's eclipse to share. 
Our events were free and open to everyone.
    In addition to our programs in Chicago and the surrounding 
suburbs, we brought our Galaxy Ride outreach program to over 
2,300 people in several rural communities in southern Illinois. 
We were also honored to be asked by Southern Illinois 
University to assist them with planning and facilitating 
several of their eclipse events that garnered national and 
international attention.
    And what were the results these efforts? We distributed, 
free of charge, over 250,000 safe eclipse viewing glasses, 
including 10,000 given to schools to help students and teachers 
in the Chicago area watch the eclipse during the school day. 
The Chicago Public Library System and libraries throughout the 
region held eclipse viewing activities at dozens of library 
branches. Chicago Park District parks held eclipse viewing 
events. Our partners such as the Chicago Botanic Garden, the 
Morton Arboretum, Naper Settlement, and WonderWorks Children's 
Museum held viewing opportunities that welcomed thousands more 
participants. We empowered people who did not have solar 
viewing glasses to find safe and easy ways to view the eclipse 
via other means.
    The Eclipse Fest block party held at the Adler Planetarium 
attracted 60,000 people, which is ten times the highest number 
we ever previously recorded for a sky observing event, and ten 
percent of our annual attendance. The audience at that event 
was a cross-section of the diverse population of Chicago, 
including participants who had never interacted with the Adler 
Planetarium previously. We estimate the number of people 
directly impacted by all of our activities to be over a half 
million.
    The next logical step to ask is, ``What's next?'' How do we 
leverage the momentum and excitement from this eclipse to carry 
us forward? This kind of effort is what out-of-school-time 
institutions like the Adler Planetarium already do. The Adler 
Planetarium exists to help people become better connected with 
the universe. The public interest in the eclipse allowed us to 
scale our efforts upward to welcome more people. Illinois 
responded to us with an enthusiasm that was staggering.
    In addition to the collective inspiration provided by the 
eclipse, the Adler Planetarium hopes this incredible experience 
will also lead to, one, financial and programmatic support for 
out-of-school-time institutions to continue providing science 
activities to the public; two, support for institutions and 
organizations to communicate with each other and jointly plan 
and sustain small and large science programs that have a 
variety of impacts; and three, support for institutions to 
bring high-quality science and engaging science activities, at 
low or no cost, to underserved populations in urban, suburban, 
and rural locations.
    We hold fast to our core belief that making science 
welcoming, engaging and accessible to all helps strengthen 
communities socially, culturally and economically. After all, 
we share a sky above our heads, and everyone deserves the 
opportunity to engage with it.
    Thank you.
    [The prepared statement of Ms. Nichols-Yehling follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you. And I now recognize myself 
for questions for a five minute round.
    First of all, I'd like to thank all of you for your role in 
what was just an incredible sort of universal experience that 
we all had. I loved watching the plane, Dr. Zurbuchen. While my 
husband was with his cereal box, I really enjoyed having that 
birds-eye view, and it just was fascinating how, you know, all 
of the communication beforehand to get everyone participating, 
to get the glasses, to do the cereal boxes, to have those large 
group events. I know in my district we had the Udvar-Hazy 
Center, so we were very--and there was--my daughter lived near 
it. I was trying to tell her to get over there, and the backup 
was--the traffic was incredible, so it was worse than the 
normal traffic that we might have, but I take that as a great 
sign of the engagement.
    So how do we now capture this in terms of directing this 
into STEM science? Because it was such a wonderful thing that 
you made in a real teaching moment and how going forward can we 
get people more engaged in these fields and in STEM careers?
    Dr. Zurbuchen. At NASA we're committed to continuing the 
discussion and continuing the engagement about science of 
various types. We have really made a focus on telling the 
story. Whether it's the discovery of planets elsewhere, whether 
it's about science of the sun, the Earth or everything in 
between, I really want to focus on that. Our STEM activities 
are through a series of collaborations out of the Science 
Mission Directorate that are supporting activities across the 
country in a variety of centers that are focused on both 
population, you know, certain groups but also on schools and 
museums to carry the message forward. We do so in partnerships 
with so many such as the NSF or organizations that are 
represented here.
    Chairwoman Comstock. And I really appreciate the comments 
on the children from the Indian reservation and how you're 
engaging them and the diversity of folks that you were able to 
engage in this. I did want to recognize, since three of my 
students--I guess two of my students from my district who were 
active in doing this also. They're also two young women who are 
active in my Young Women's Leadership program where we tried to 
focus a lot on science, and we have Kendall and Reagan and then 
Kendall's mom, Jane Marie, so thank you for bringing them here. 
But maybe address a little bit about how you were able to 
engage everybody in that, and so how can we make--with this 
particular interest in mind, we had the Inspire Women Act that 
passed earlier this year. We were trying to get more women 
engaged in these fields. So maybe to our female witnesses how 
we might do a little bit more of that.
    Dr. Hammel. Thank you. We're fortunate in that the universe 
has granted us a second go-round on this eclipse and so the 
lessons that we learned from this eclipse about engaging the 
young people as being the ambassadors themselves to their 
communities is a fabulous way to engage young people in science 
and also get them into leadership roles, and that's what will 
keep young women and other people engaged in this kind of 
activity. So we're going to continue the kinds of programs that 
we started and I hope we can--try to expand those things as 
well. As you know from your experience, having the young people 
engaged, involved and being the leaders themselves, is a great 
way to capture them intellectually and emotionally.
    Ms. Nichols-Yehling. One of our projects that the Adler 
Planetarium had was to give telescopes to some libraries and 
teach teens, young people at those libraries how to use those 
telescopes. One of our goals is increasing the capacity of 
communities to provide their own observing opportunities, and 
so this was a great test of that, but in the future, we hope to 
do more of it and also work with other partners, other museums 
and folks, especially those we haven't worked with before, 
because this gave us an opportunity to reach other audiences. 
So reaching teens, reaching young folks, reaching other 
partners will be important to us, especially going into 2024.
    Chairwoman Comstock. Thank you, and thank all of you again. 
It really was an incredible, all the work that you did, and we 
can't thank you enough, and I think we've harnessed a lot of 
that enthusiasm going forward for STEM. Thanks.
    And I now recognize Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you. I hate to admit it, but 
unfortunately, I was not in the country the day of the eclipse, 
and I had a neighbor who was telling me his plans about driving 
down from Chicago to close to St. Louis, and they were going 
to--waiting for the morning, the weather forecast. They knew 
where they could go, where they could see it, and when he came 
back, it was just something that raised that excitement, and I 
remember from my own childhood, and it wasn't even anything 
like this, a total eclipse. I remember that. So it's a great 
opportunity and it's especially great to know that it's not too 
long we're going to have that opportunity again.
    So I wanted to sort of ask Ms. Nichols-Yehling about ways 
that you're going to use this, the Adler Planetarium is going 
to sort of try to use this to leverage interest in other of 
your outreach activities and longer-term public engagement in 
science because you captured a lot of attention here, a lot of 
people's interest, and how do you sort of keep that going and 
also give the--make sure people are aware of and draw people 
into other opportunities and other things that they can learn.
    Ms. Nichols-Yehling. Exactly. This is basically what the 
Adler Planetarium does and what we're really proud to do. The 
goal in the future, we want to not only reach people broadly 
but we want to reach them in depth, and so we have several 
programs, especially those in our teen programs area, that 
really try to hook teens but get them involved in real science, 
and that's one of the goals is not just have people come out 
and enjoy the eclipse for one day, give them other 
opportunities to come back to the planetarium and also explore 
other resources in their community to be able to go in more 
depth.
    And so one example is our High Altitude Ballooning program 
called Far Horizons, and so we have ways for kids to be 
involved in that, taking real science data, and have teens 
involved in potentially recovering pieces of meteorite from the 
floors of Lake Michigan. And so these are ways that we can 
really reach people, not just broadly but try to really focus 
on the fact that science is best engaged when it's real.
    Mr. Lipinski. Thank you. And anyone else on--any they're 
working on in that regard?
    Dr. Penn. If I could just interrupt, we designed the 
funding for the CATE instrument so that the groups keep their 
telescopes the day after the eclipse, and so now we have a 
small network of 68 groups that have their telescopes, and we 
have a working group that's looking at following up with 
nighttime projects so the students who were really excited by 
the eclipse and are now really excited as well about STEM can 
continue observing with their CATE instrumentation.
    Mr. Lipinski. Very good. Anyone else have anything to add?
    So what have we--anything that we've learned, you expect to 
learn getting more sort of beyond the public engagement about 
the--potentially about solar storms, threat of space weather? 
What are the expectations from the data that was collected from 
the eclipse?
    Dr. Zurbuchen. So one of the most important elements--you 
know, there's many but one of the most important elements for 
NASA is that we were able to use this unique view to test space 
weather models. So what we actually did is, we tested models 
that were supported both by NSF and NASA and we ran them on the 
fast computers, the fastest computers at NASA with days to 
spare, and were making predictions that are now tested and 
analyzed. And so it's really became a benchmark type of test of 
these models that are so critical for space weather 
applications.
    Mr. Lipinski. Thank you.
    Dr. Ulvestad. If I could add to that, we, NSF, used our 
Stampede 2 supercomputer for one of those activities that Dr. 
Zurbuchen mentioned, but also our network of solar telescopes 
around the world. We used that to help make predictions, and 
those are used operationally by NOAA and the Air Force for 
space weather prediction. So this gave us a chance to test the 
models that we're using from those observing telescopes and see 
if what they predicted was close to the truth or not, and that 
will enable us then to refine the models and do better in the 
future.
    Mr. Lipinski. Thank you. My time is up, and I yield back.
    Mr. Babin. [Presiding] Yes, sir. I now recognize myself. 
I'm Brian Babin from the State of Texas, and I'm sitting in for 
our Subcommittee Chairman, Mrs. Comstock.
    I'd like to ask you, Dr. Zurbuchen, NASA is launching the 
Parker Solar Probe next year to dive into the corona closer 
than we've ever been to the sun before. What technological 
advancements will allow that to work, and what do we hope to 
learn?
    Dr. Zurbuchen. So this is one of those missions that the 
community wanted to do since the 1960s when it was clear that 
there's a solar wind and we were trying to figure out how it 
arose, right? It's now clear that that solar wind and its 
storms are really affecting our technological society, and so 
the technologies that are enabling the Solar Probe are really 
an advanced heat shield, first of all. This thing gets really 
hot at the front end and the back, you could easily sit. It's 
room temperature, I mean, so in the middle is high-tech heat 
shield, so that's technology number one. The second one is 
high-temperature solar panels, so if you took a regular solar 
panel to make solar energy out there from here it would of 
course not work because it gets too hot and kind of the panel 
shorts so that the panels that were developed for that 
particular mission were panels that can sustain the temperature 
to be down there at close solar distance and work. So those are 
the enabling technologies, certainly the ones that stand out in 
my mind.
    What we hope to get from it is really measurements that are 
focused on answering the pivotal question here, which is, how 
does the sun accelerate the solar wind. We actually don't 
really know the extent how--what heats the extended corona, 
understanding that underlying physics not only will tell us 
about space weather but about magnetic stars and channel 
because we know that these effects are everywhere. So this 
pivotal measurement we wanted to do for a long time. It's 
finally in reach.
    Mr. Babin. Thank you. Very fascinating.
    Then Dr. Hammel, I'm very interested in the Carrington 
Event, which I've read about, and you mentioned--I think it was 
you that mentioned it earlier. How likely do you think another 
catastrophic event like this will happen in the next, say, 
decade? Do we have any good predictive models for this? And 
then what are we currently doing? I think one big topic today 
is our infrastructure, our electric grid, whether it be manmade 
or some natural disastrous event like this. If you can answer 
some of those questions and elaborate, I would appreciate it.
    Dr. Hammel. Sure. As you heard from Dr. Zurbuchen, one of 
the activities that took place during this total solar eclipse 
was exercising our models, and it's our models that we rely on 
to determine whether or not an event like the Carrington Event 
is likely to happen in the future.
    Yesterday when we were preparing for this, we had some 
discussions about how likely is it because we are curious too, 
and there have been some studies that have predicted that the 
probability of something like this happening is something like 
ten percent per decade. Not everybody agrees with that. That's 
just one of the models. But when you do the math and you think 
about when the Carrington Event took place and where we are 
now, how many decades is that? A 10 percent probability? So 
we're pretty close to maybe having another one. And in fact, 
there have been in recent months some very large-scale solar 
flares that have taken place. Fortunately, they have not been 
directed at the Earth, and so we have escaped for now. There 
are, though, of course, on record--there's evidence that solar 
storms have affected things like airplane navigation systems, 
other kinds of--lower-level-scale effects. So it's real. It's 
going to happen sooner or later. So it's important that we are 
prepared for that.
    So what are we doing to prepare for that? A lot of people 
are thinking about that. Every year there's meetings of people 
that get together that include a lot of people who are 
interested in trying to mitigate, prepare, how to set up our 
infrastructure so that it is more robust, how to prepare our 
satellites so that if we know an event is going to happen, what 
can we do to power then down so they are not quite as severely 
damaged, and I know that there are many groups in the 
government who are working collaborative together, not only are 
NASA and NSF representatives but NOAA, FEMA, the Air Force, all 
of these groups have been talking actively about this, so it's 
a subject that is on people's minds.
    Do any of my colleagues want to add----
    Mr. Babin. Yes, I'd like to hear anyone else has----
    Dr. Ulvestad. I'll just add to the last point Heidi was 
making, which is for the last three years under the National 
Science and Technology Council, there's been a group called the 
Space Weather Operations Research and Mitigation Task Force, 
and they produced the National Space Weather Action Plan back 
in late 2015. That involves, as Dr. Hammel said, NASA and NSF 
but also FEMA is involved, and the Department of Energy, so 
understanding how to predict solar storms and then 
understanding okay, what is your response, how do the public 
utilities respond, and given a certain probability of a solar 
storm of a certain magnitude, what should they do. That's the 
kind of question that this interagency task force is wrestling 
with.
    One of the things that we've been doing recently is sort of 
working on establishing benchmarks for the level of solar 
activity that would cause us to recommend certain actions as a 
government, so I think that's ongoing. It's good to see a lot 
of different agencies working together. In the course of my 
normal daily life, I wouldn't interact with FEMA so I think 
it's really good that we have that opportunity through this 
task force.
    Mr. Babin. Thank you very much.
    My time is expired, but I want to say that I've been very 
active with FEMA here lately too because we had Hurricane 
Harvey down there, and I appreciate your testimony.
    Now I'd like to recognize Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Thank you to all of our witnesses. I'm from Oregon, so this 
was a very big deal in our state. The estimates were about a 
million people came into the state. We only have 4 million 
people living in Oregon so it was significant, really, really 
important to our state, and really, it was awe-inspiring. We 
had astronomers and hobbyists and families from all over the 
world actually traveling to my home state. OMSI, our Oregon 
Museum of Science and Industry, hosted a big event. Oregon 
State University in Corvallis had thousands of people for a 
viewing. They hosted exhibits, educational lectures. The 
university also had research projects that they initiated on 
the coast. A team of students from Lynn Benton Community 
College, for example, and OSU launched a balloon from the 
research vessel, the Pacific Storm, to capture live video of 
the eclipse. This balloon investigated the high-altitude 
temperature and pressure variations, so that was exciting. The 
Ocean Observatories Initiative used in-water instruments to 
study how oceanic zoo planktons responded to the darkness 
caused by the eclipse an hour before the sky went dark. They 
started their nighttime feeding procedure, and scientists found 
actually that the ocean temperature barely moved even at 
totality. Really, really amazing experience from what I 
personally felt, and I was at 99 percent just in my own 
neighborhood. The temperature dropped significantly, and that 
was the first thing everybody could feel, a significant drop in 
the temperature, and as the sky began to turn dark, we saw the 
wavy lines. It was a really, really amazing, awe-inspiring 
experience.
    I wanted to ask you, Dr. Penn, about Citizen CATE because I 
saw how many sites you had across the State of Oregon, and what 
a great way to really capture so much as the eclipse moved 
across the country. Can you talk about--and I read a little bit 
and heard a little bit about your funding challenges along the 
way. Can you talk about the importance of the federal funding 
from NASA and NSF? And I know that that was a big part, but as 
we set budget priorities here, it's really helpful to have yet 
another example of where federal funding made a difference.
    Dr. Penn. Yes. So we started out in 2016 by getting a grant 
from NASA to do some student training. So Miles McKay was one 
of the students. We shipped up a bunch of--or packed up--a 
bunch of students with telescopes and sent them to Indonesia to 
get on-the-job training during the 2016 eclipse. When they 
returned we had some summer programs where they did some 
research with their data, but most importantly, they ran the 
workshops, the training workshops, for 2017 volunteers across 
the country. So that was really critical. It not only took the 
burden off of me to try to train 68 teams, they spread out and 
did the training, but it empowered them to learn about solar 
physics and to have the experience of the eclipse to start 
with.
    And then building the instrumentation funding for 2017 was 
a challenge but actually looking back, I'm just amazed at the 
cooperation from corporate sponsors. We had Daystar Filters 
donating 60 free telescopes to us and Celestron donated 60 free 
mounts. Mathworks and Color Maker were our other corporate 
sponsors, major corporate sponsors. And then the National 
Science Foundation was able to bring us from a site--it looked 
like we were going to get about 30 sites, bring us up to the 
full 68-site total. So it was a challenge but it was just a 
great honor to be involved with that.
    My favorite story is that Color Maker--you may not have 
heard of them but they make food dye in Anaheim, California, 
but the CEO is an avid amateur astronomer and he read about our 
program and sponsored five sites.
    Ms. Bonamici. That's a wonderful example of public-private 
partnerships.
    Ms. Nichols-Yehling, I know from your background at the 
planetarium, you had a really important role in bringing the 
experience to the public, and talk a little bit about sort of 
outreach and the level of participation. How did you reach 
audiences and groups of young people not typically engaged in 
sort of out-of-school science activities?
    Ms. Nichols-Yehling. So about three years ago, we started, 
as I mentioned before, working with libraries to bring 
telescopes to them, and teach folks there how to use those 
telescopes, and then they were able to use them on the day of 
the eclipse, and we intend to keep that program going forward 
and even reach more libraries, other institutions, schools and 
that sort of thing. We worked with other institutions including 
a botanic garden, an arboretum, to teach their staff about 
science-related to the eclipse but try to connect the eclipse 
to things that would connect with their audiences such as 
seeing the eclipse shadows through the leaves on trees and look 
at them on the ground. So ----
    Ms. Bonamici. I'm on the Education Committee as well as the 
Science Committee, and I'd heard a concern that some of the 
schools were planning to close because they were concerned that 
they wouldn't be able to protect students' eyes. It seems like 
sort of a lost opportunity. So we need to prepare ahead for the 
next eclipse to make sure that this is a great and wonderful 
learning opportunity for students. We'll get those glasses and 
make sure that everybody knows. Because that was a real serious 
concern in Oregon.
    And in my remaining few seconds, I'd like to--and there 
won't be enough time but to follow up on what are some of the 
leading theories about, you know, one of the big outstanding 
questions about the sun is why the corona is so much hotter 
than the surface and what are we hoping to learn, and what are 
these experiments during 2017, how are they going to advance 
our understanding of the heating of the coronal area. Anybody 
want to----
    Dr. Penn. Yes. So the heating issue is being addressed by 
several of my colleagues looking at images at different 
temperatures, and they've had a short network of a few sites, 
so we hope to get a handle on that. And then the acceleration 
of the solar winds, another coronal problem, and the Citizen 
CATE data should address that.
    Ms. Bonamici. And thank you. And as I yield back, Madam 
Chairman, I want to say, Chairwoman, that in 1979, February 
1979, at the time of the eclipse then, an ABC news report at 
that time said about the world on August 21st, 2017, ``May the 
shadow of the moon fall on a world at peace,'' and may we say 
that about 2024, and I yield back. Thank you, Madam Chairwoman.
    Chairwoman Comstock. Thank you.
    And I now recognize Mr. Beyer for five minutes.
    Mr. Beyer. Thank you, Madam Chair, very much.
    I just have a series of short questions.
    Dr. Zurbuchen, so we call this the Great American Eclipse. 
What are we going to call the next one?
    Dr. Zurbuchen. That's a good question. Do you have a 
suggestion?
    Mr. Beyer. No. It's just you have to be careful. You know, 
it's like saying this is my favorite child.
    Dr. Zurbuchen. Yeah, I know, I know. I worried about it 
too, you know. I don't know. I mean, I don't have a good idea 
at this moment.
    Mr. Beyer. We can have a contest.
    Dr. Zurbuchen. Yes, we should. We should.
    Mr. Beyer. Dr. Ulvestad, I've always been concerned--you 
know, is it just accidental--we look in the sky and the disc of 
the moon looks about the same size to us as the disc of the 
sun, and if you look at the nice picture we have on our things, 
you figure that if the moon were bigger or smaller, that 
eclipse wouldn't look the way it does. Is this accidental or is 
there something bigger that's driving this like----
    Dr. Ulvestad. So we live in a fortunate time in that sense, 
okay? The Earth is slowing down in its rotation due to the 
tidal forces from the moon, and as the Earth slows down, the 
moon moves farther away. So I was actually curious about your 
question myself because the moon moves away at some centimeters 
per year, or something like that, and I was thinking, well, 
when is the moon going to be too far away to not ever have a 
total solar eclipse again, and it's hundreds of millions of 
years, so we've got some time yet.
    Mr. Beyer. But other than that, it's just accidental?
    Dr. Ulvestad. Other than that, if you go into the theories 
of anthropomorphism and why humans appeared on Earth at a 
certain time, you could probably come up with something but I 
don't think there's any scientific reason that the moon and the 
sun happen to be the same angular size right now.
    Mr. Beyer. I think we'll recommend to our Chairman and 
Chairwoman that we have a hearing on the anthropomorphism 
coming up. We'll invite you back.
    Dr. Penn, on the Parker Solar Probe, how long will it 
survive? Is this a--is it going to be going there for 2 minutes 
and 48 seconds or----
    Dr. Penn. No, I think it'll make several passes. I must 
admit, I'm not an expert on this but I think it'll make several 
orbits through the corona and gather on both.
    Dr. Zurbuchen. I think it's a seven-year mission duration 
but hopefully it will survive even longer. So it's cranking 
down, so the first time it flies by it's closer to, you know, 
Venus and then Mercury distance and then really taking the 
periapsis, the close part of the ellipse, closer and closer 
until it's at 9.8 solar radii. We live at 215 solar radii, just 
for scale.
    Mr. Beyer. Great. Thank you.
    Dr. Hammel, I noticed when Dr. Zurbuchen was on the 
airplane looking at the eclipse, he didn't have those classes 
on. Do you not need the glasses when it's at totality or----
    Dr. Hammel. I brought my glasses for this very purpose. 
Actually, once totality has been achieved, you can take off the 
glasses and then you have a fantastic view. You need these 
glasses when any little piece of the sun is exposed. So I'm so 
sorry that you only saw a 99 percent eclipse.
    Ms. Bonamici. It was awesome.
    Dr. Hammel. Yes, but it's even awesomer if you can get into 
the path of totality. The difference between 99 percent and 100 
is literally the difference between day and night. Even that 
tiny little piece of the sun is a million times brighter than 
the corona. So once you have that last bit disappear behind the 
moon, everything changes. Everything changes. So I hope for 
2024 you make that trek to the totality line. It's worth it.
    Mr. Beyer. As Mark Twain said, the difference between 
lightning and a lightning bug.
    Dr. Hammel. Yeah. There you go.
    Mr. Beyer. Dr. Hammel, though, I'm struck with the notion 
that I think the testimony was, we gave our 4.3 million 
glasses, but 51 percent of Americans intended to look, which 
gives you 165 million. Does that mean we have 161 million 
people who can expect some eye damage?
    Dr. Hammel. No, not at all. We can share glasses. The 
amount of the totality--the amount that leads up to totality 
when you must have these glasses takes over an hour. It takes 
quite a long time. And so you put the glasses on and you see 
the sun sort of being chipped away by the moon but then you 
take your glasses off and you hang out with your family and 
your friends, and a few minutes later you put them back on 
again, so there's a great deal of sharing that can go on. And 
there are many other ways to experience the eclipse. As we 
heard, you know, the cereal box is a fabulous way to do it as 
well, and that has the advantage of teaching kids a little bit 
about optics too and how a pinhole can act somewhat like a 
telescope, and there's a lot of other things that--and all of 
us who were involved in outreach shared many of those other 
ways of enjoying the eclipse in addition to the glasses.
    I think that one of the lessons that we all learned from 
this eclipse is that we have to be even more rigorous about 
ensuring that there are many, many millions of glasses 
available in the 2024 event. I'll share my own experience. I 
worked closely with a teacher in Virginia, and she was training 
500 of her fellow teachers that day, the day of the eclipse, 
and they had ordered their glasses from Amazon, and then when 
this came about that they couldn't be sure that their glasses 
were safe, she and I brainstormed on all the other ways that 
the teachers could experience the eclipse. I think that we will 
take the lesson to heart because in 2024, the eclipse is in 
April and the schools will be in session and so we want to be 
sure that everybody has the opportunity to experience the 
eclipse and can experience it safety.
    Chairwoman Comstock. I now recognize Mr. Veasey.
    Mr. Veasey. Thank you, Madam Chair.
    I wanted to ask just about the days leading up to the 
eclipse. I know that like you were talking about, there was a 
lot of confusion about the glasses, and Amazon actually issued 
a recall on some of the glasses that were out there in the 
marketplace, and I just wanted to know, from you, can you talk 
about the efforts that your agencies made to help spread 
information about the glasses? Because I think when we get 
ready to have the next one, as far as the general public is 
concerned, you know, we're here having this Committee hearing 
today and going into, you know, great detail about the eclipse 
and what it means, but in 2024 they're going to want to know 
about what glasses to use again. So is there any lessons, 
anything like that that you can talk about?
    Dr. Ulvestad. So I'll say a couple words about that. We 
funded the American Astronomical Society to create a web page 
of resources, and that web page of resources had instructions 
on what you should do and what you shouldn't do, and that's 
fine if you know where to go to look for that web page, but I 
think the lesson for that is that we need to be more aggressive 
about marketing that kind of web page and that kind of 
information and do more pushing out to the public rather than 
waiting for people to stumble across it because it showed up on 
their browser.
    Ms. Nichols-Yehling. And we also as a public institution 
directed people to that American Astronomical Society web page 
as a very trusted source of information. We also allayed 
people's fears because we got our glasses directly from one of 
the trusted manufacturers. But then for those folks who were 
still concerned, definitely pushing those other ways to be able 
to safety view the eclipse because it wasn't necessary to 
actually have a pair of glasses. There were many, many other 
ways to do it that were still perfectly safe. So getting all 
those messages across through our social media, through the 
regular traditional media was really important in the days and 
weeks leading up.
    Mr. Veasey. All right. What do you think just about 
lessons, you know, learned? I mean, you talked about the steps 
that you guys took to make sure that you were getting them 
correctly and trying to get that information out into the 
public. Do you think there's something else that we can do when 
the next one comes around to maybe even prepare even better?
    Ms. Nichols-Yehling. I'd say get the word out even sooner 
because it was really hectic right at the end, maybe the last 
two or three weeks. We were just getting phone calls and emails 
of people concerned every single day, but definitely working 
with our partners, working with the media several months ahead 
of time, that's one of the lessons we took from it.
    Dr. Zurbuchen. And I just want to add, I think it's 
absolutely important to recognize that not everybody is getting 
their news the same way, right? Some URLs may or may not be 
used. I mean, my children, if they ever see me, it's on 
Instagram, which I don't know, I don't hang out there, but you 
know--so basically really looking at all the communication 
channels, and I think what really helped with the glasses, 
frankly, is people practicing up front, you know, basically 
really looking at the glasses and measuring what they blocked, 
and then it was clear, hey, days ahead, right, that these 
particular set of glasses were not safe and then, you know, 
thank God for the companies really replacing them. So again, 
really using all communication channels that are relevant and 
going ahead and practicing, making sure we don't take it for 
granted.
    Mr. Veasey. Thank you. Thank you, Madam Chair.
    Chairwoman Comstock. I now recognize Mr. Foster for five 
minutes.
    Mr. Foster. Thank you, Madam Chairman.
    And I'm--well, first of all, I myself had the pleasure of 
watching the eclipse with students and their families at the 
Joliet Library's solar eclipse viewing party in my district, 
and like our panelists and the members here, I was really 
encouraged to see people from every walk of life taking an 
interest in science just because of the eclipse.
    But, you know, I'm a scientist so I tend to like numbers 
about things, and a few weeks ago I became aware of a NASA-
funded research project led by Dr. John Miller of the 
University of Michigan to actually quantify who viewed the 
eclipse, how people prepared for it, gathered information for 
it ahead of time, when and how they viewed it, and in the 
months and weeks following how--you know, the effects that it 
had on their scientific engagement and literacy. So this seemed 
like it was precisely the sort of, you know, fact-based public 
engagement that NASA should be engaged in, so I was thrilled to 
see this report.
    And I would like at this point to ask unanimous consent to 
enter into the record a preliminary version of the report----
    Chairwoman Comstock. Without objection.
    [The information appears in Appendix II]
    Mr. Foster. Thank you. By Dr. John Miller titled 
``Americans and Their 2017 Solar Eclipse.''
    With that out of the way, one of the things I just want to 
mention about this is that one of the--just to capture one 
sentence from his report, it said ``During the two months prior 
to the eclipse, millions of American adults engaged in a wide 
array of information-seeking and acquisition activities to 
improve their understanding of the forthcoming event,'' and 
trying to really understand that, and you know, I understand 
that Dr. Miller has, you know, a very aggressive program of 
expanding this. He's looking at things like social media and so 
forth to actually quantify this, and I think I just want to--if 
any of you have any specific familiarity with that, I'd be 
happy to hear comments on it.
    Dr. Zurbuchen. So this study was funded out of the STEM 
activation parts of our Science Mission Directorate. We're 
really excited about it. Of course, both coverage that, you 
know, we managed to get all together, right? It's not just one 
source. What I wanted to point out also is of course that a lot 
of the studies are still ongoing, so I'm really glad you're 
looking at this initial report but we'll make sure that we draw 
your attention to the final report once it's been completed. I 
really want to make sure that we look at it just like you said. 
We feel it's absolutely crucial to use the tools of social 
sciences, you know, to really make sure that our outreach 
efforts are targeted and are also up-to-date as things are 
changing as we go forward.
    Mr. Foster. Well, thank you. It's always nice to see 
government doing its job well.
    Now, to get to a little bit of scientific things here, how 
much overlap is there between preparation and mitigation for 
coronal mass injection events and EMP events caused by 
potential nuclear attacks? Is this now a completely separate 
set of preparation and mitigation or are there enough 
similarities about what you have to protect even though 
obviously the time structure and intensity of the pulses are 
very different?
    Dr. Ulvestad. I can say a few words about that, which I've 
fortunately learned from listening to my FEMA colleagues at the 
Space Weather Task Force. They have lots of plans on the shelf, 
and when they start thinking about what's going to be the 
result of a space weather event then they go to their shelf and 
they say here's the kind of thing we have that looks a lot like 
a space weather event. So an EMP pulse that you just mentioned, 
I imagine, is one of the things that they would say it looks 
kind of like a space weather event. So within at least my 
organization, within NSF, we don't engage in that activity but 
I think what they do is, they take as a starting point what 
they already have, rather than starting from scratch. They say 
okay, what's different about a solar event from another event 
that we've studied, and that means they're not starting from 
square zero.
    Dr. Zurbuchen. So one of the major differences between the 
two events is the geographic extent of the event, and so 
basically the real worry about a solar event of the type Dr. 
Hammel outlined earlier is that it would be regional in nature, 
and so basically what would happen in an electrical system, it 
would overload as a regional type of thing so far less it's a 
local thing like lightning or even a pulse of the type that 
you're outlining. There are similarities relative to the 
physics locally with the electrical fields going up and so 
forth, how the systems react. But there's real differences 
relative to the geographic event and therefore the overall 
extent of the damage that could occur from it.
    Mr. Foster. Of course, all nuclear EMP events are not 
created equal, depending on altitude and related things.
    Well, you know, it's nice--I just want to encourage you to 
actually, you know, share your planning on that because, you 
know, neither of the two events unfortunately are low-
probability events, and often dealing with low-probability, 
high-damage events is something that in our democracy does not 
do that well, and so I'm encouraged to see that you're at least 
thinking about part of that problem.
    Thank you, and at that point I'll yield back.
    Chairwoman Comstock. Thank you. And again, I thank our 
witnesses for the great experience that you provided for our 
students and for people across the country, watching on the 
plane, seeing all the web activity and having that all 
captured, and now all the information that you have for 
research going forward. It was really exciting to see this all 
in action.
    I believe we only have about nine minutes left to vote, so 
I do thank the witnesses, and the record will remain open for 
two weeks for additional written comments and written questions 
from members, and the hearing is now adjourned.
    [Whereupon, at 10:36 a.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
